August 6, 2020
Honorable Scott S. Harris
Clerk of the Court
Supreme Court of the United States
One First Street, NE
Washington, DC 20543-0001
Re:

No. 19-1186, Joshua Baker, Director, South Carolina Department of
Health & Human Services v. Planned Parenthood South Atlantic, et al.

Dear Mr. Harris:
Petitioner respectfully requests that the Court delay distribution of the
petition for writ of certiorari until September 16, 2020, for consideration at the
Court’s conference on October 9, 2020. The petition for writ of certiorari was filed on
March 27, 2020, and was placed on the Court’s docket on March 30, 2020. After the
Court granted three requests to extend the response deadline by 30 days,
Respondents’ brief in opposition was filed on July 29, 2020. Pursuant to Supreme
Court Rule 15.5, absent the requested delay, the petition, brief in opposition, and
reply brief would be distributed on August 12, 2020.
Counsel for Petitioner seeks a 35-day extension due to the restrictions
currently being experienced due to COVID-19 and the press of numerous other
litigation deadlines. Among many other matters, Petitioner’s counsel has the
following upcoming litigation deadlines:
•

A response to motion to stay briefing in the United States Court of
Appeals for the Eighth Circuit on August 7, 2020 (Thayer v. Planned
Parenthood of the Heartland, No. 20-2151);

•

An opening brief in the United States Court of Appeals for the Second
Circuit on August 12, 2020 (A.M. v. French, No. 20-1772);

•

A summary-judgment hearing in the United States District Court for
the Eastern District of Michigan on August 18, 2020 (JP Morgan
Chase Bank, N.A. v. Larry J. Winget et al., No. 2:08-cv-13845);

•

A summary-judgment hearing in the United States District Court for
the Western District of Michigan on August 20, 2020 (Taylor v. Barnes,
No. 1:19-cv-00670);

BURSCH LAW PLLC
ATTORNEY AT LAW
9339 CHERRY VALLEY AVE SE, #78
CALEDONIA, MICHIGAN 49316  WWW.BURSCHLAW.COM

19-1186
Baker v. Planned Parenthood South Atlantic
•

A supplemental brief on remand in the United States District Court for
the Northern District of New York on August 21, 2020 (New Hope
Family Services v. Poole, No. 5:18-cv-1419);

•

An opening brief in the United States Court of Appeals for the Eighth
Circuit on August 28, 2020 (Thayer v. Planned Parenthood of the
Heartland, No. 20-2151);

•

A reply brief in the United States Court of Appeals for the Ninth
Circuit on August 31, 2020 (Calvary Chapel Dayton Valley v. Sisolak,
No. 20-16169);

•

An opening brief in the United States Court of Appeals for the Ninth
Circuit on September 2, 2020 (Cedar Park Assembly of God of
Kirkland, Washington v. Kreidler et al., No. 20-35507);

•

A reply brief in support of a petition for certiorari in this Court on
September 2, 2020 (Tennessee, By and Through the Tennessee General
Assembly, et al. v. Department of State, et al., No. 19-1137);

•

A significant response brief in the United States District Court for the
Southern District of Iowa on September 3, 2020 (Thayer v. Planned
Parenthood of the Heartland, No. 4:11-cv-00129-JAJ-CFB);

•

A reply brief in the United States Court of Appeals for the Sixth
Circuit on September 7, 2020 (Meriwether v. The Trustees of Shawnee
State University et al., No. 20-3289); and

•

A merits brief and joint appendix in this Court on September 8, 2020
(Uzuegbunam v. Preczewski, No. 19-968).

Respondents do not object to this extension.
For these reasons, Petitioner requests that the Court delay distribution of the
petition for writ of certiorari until September 16, 2020.
Respectfully Submitted,
John J. Bursch
John J. Bursch
Counsel for Petitioner

19-1186
Baker v. Planned Parenthood South Atlantic
Service List:
Alice Clapman
Planned Parenthood Federation of America
1110 Vermont Avenue, NW, Suite 300
Washington, DC 20005

